No. 21-202
IN THE

Supreme Court of the United States
MYLAN LABORATORIES LTD.,
Petitioner,
v.
JANSSEN PHARMACEUTICA, N.V.,
and
ANDREW HIRSHFELD, Performing the Functions and
Duties of the Under Secretary of Commerce for Intellectual
Property and Director of the United States Patent and
Trademark Office,

Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,012
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 13, 2021.

/s/ Matthew S. Hellman
Matthew S. Hellman

